<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------  


                        THURSDAY, APRIL 16, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Cochran, Capito, and Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The meeting will come to order. We have 
just had a Senate vote. I believe we will be joined by Senator 
Mikulski and some others in a few minutes. General, your time 
is valuable, and I thought I would get started.
    Again, welcome to the subcommittee. This subcommittee has 
been very supportive, General Bolden, of NASA and its work to 
maintain a healthy funding level for NASA while preserving a 
balanced and I believe a productive space program.
    NASA's work is exciting, as you well know, inspiring, and 
educational. From the photos of galaxies captured by the Hubble 
Space Telescope to the future of humans traveling to Mars, NASA 
has captured the imagination of school children and citizens 
across the globe, and inspired generations of scientists and 
engineers.
    This country has limited resources, however, which requires 
us to prioritize our spending. NASA spending is not an 
exception. The NASA budget proposes a total funding level of 
$18.5 billion, an increase of $519 million above the 2015 
level. Such a significant increase should represent balanced 
funding for NASA's priorities. Perhaps not enough.
    Instead, there is a sizeable growth in programs like 
Commercial Crew and Space Technology, while other programs, 
such as science missions and Exploration Systems Development 
have significant reductions. The cuts to Exploration are 
especially concerning to the subcommittee. The successful test 
of the Orion capsule last December showcased NASA's innovative 
plans for the future.
    This budget could have been an opportunity, I believe, for 
NASA to boldly support human exploration after years of budget 
requests, in which I believe it was short changed.
    Instead, NASA's budget cuts funding to Orion and the Space 
Launch System, or SLS, limit our reach in human exploration. A 
20 percent cut to SLS during its critical phase of development 
risks important investments that have been made in communities 
across the country. It also risks the success of the program.
    The budget makes it impossible, a lot of people believe, 
for NASA to make efficient and cost effective decisions for the 
long-term development of a launch system that is being built to 
achieve the Nation's human exploration goals.
    While NASA is good at creating charts and talking about 
moving human exploration beyond our current capabilities, NASA 
has yet again failed to propose a budget that can accomplish 
what the agency claims is one of its top priorities.
    General Bolden, a lot of us are troubled by the overall 
priorities included in this budget, requiring key development 
programs to operate with insufficient funding is irresponsible. 
While the proposed funding level of $18.5 billion is a good 
start, there is much work to do and it must be done to develop 
a balanced budget that achieves NASA's core missions and its 
future goals.
    I look forward to working with you to address some of these 
concerns. At this point, I want to recognize Senator Mikulski, 
the vice chair of the full committee.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. 
Administrator Bolden, we welcome you. I apologize for being 
late. We actually had a tremendous victory in the Senate, the 
Elementary and Secondary Education Act passed 21-0 out of the 
committee. We were kind of doing a victory lap.
    Today, I know we are here to examine the NASA budget 
request of $18.5 billion. It is $0.5 billion more than what was 
enacted in fiscal year 2015.
    As I look at this budget request, I have very deep 
concerns. I am concerned that we could be having a threat to 
the balanced space program that we have all worked together on 
an bipartisan basis on and said yes to human space flight. We 
need a reliable transportation system both for our astronauts 
to go where they have not had a chance to go before and can do 
important servicing missions.
    I am concerned, of course, about what is about to happen to 
the Goddard Space Flight Center, which I do not think gets a 
fair shake in this particular appropriations. The Goddard 
request for science missions is $3.0 billion, it is $324 
million below fiscal year 2015.
    The Goddard is currently operating 35 on orbit missions. It 
also is absolutely key to the Hubble Space Telescope and the 
James Webb Telescope and others. I want to know why Goddard was 
cut $300 million.
    Of course, we are deeply concerned about other efforts, one 
of which is the whole issue of satellite servicing. Satellite 
servicing is absolutely important to our national interest. It 
was cut by $65 million. It was $130 million in fiscal year 
2015.
    The whole idea of satellite servicing as we know, is that 
our country and our private sector have satellites. We do not 
want them to just die in space and be space junk. They can be 
re-serviced. There is technology and workforce at Goddard that 
knows how to do it. Somehow or another, we do not seem to want 
to invest in it or if we do, we short change it.
    Of course, there is the Wallops Flight Facility. We put 
money into the Federal budget in terms of fixing Wallops after 
the terrible storm. We know there was $20 million, Mr. 
Chairman, you worked with us on, and I know in a recent 
conversation with Senators Warner and Kaine, they do not feel 
that Wallops is on track, and if they do not feel Wallops is on 
track, neither do I.
    I have some questions about all this. I really need to hear 
these answers, because I feel, do we have a balanced space 
program or not.
    Mr. Chairman, I know we want to move on. I am through with 
my remarks.
    Senator Shelby. Thank you. Senator Cochran, do you want to 
be recognized?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, just to join you and Senator 
Mikulski in welcoming our witness. We appreciate very much your 
assistance in helping us identify the priorities of NASA and 
related activities. We are pleased about the development of the 
Space Launch System.
    As you know, the Stennis Space Center located in my State 
is very important, not just for the work that it does in the 
scientific area, in research, but also rocket testing and the 
infrastructure at Stennis is a very important asset for the 
entire system and our Nation's goals in space.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you. General Bolden, again, welcome 
to the subcommittee. Your full statement will be made part of 
the record, as you know. Proceed.

            SUMMARY STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Mr. Bolden. Thank you very much, Mr. Chairman. At the 
outset, Chairman Shelby, with your permission, I would like 
your indulgence to say a few words of thanks for Ranking Member 
Mikulski.
    Senator Mikulski, it is safe to say that all of us at NASA 
and across the space community were saddened at your recent 
announcement that this will be your last Congress. You have 
been a champion for America's space program.
    This week and next week, we celebrate the 25th anniversary 
of the Hubble's mission, and there is no question that we would 
not have reached this milestone were it not for your unwavering 
support.
    Of course, there is still 2 years of work ahead of us in 
the Congress, and we look forward to continuing to work with 
you, Chairman Shelby, and the other members of this 
subcommittee.
    Mr. Chairman and members of the subcommittee, 5 years ago 
yesterday, President Obama came to the Kennedy Space Center and 
laid out what I believe is a bold transformative agenda for 
NASA. He challenges us to embark on a journey to Mars.
    He spoke of extending the life of the International Space 
Station (ISS), and increasing earth based observation. He 
called for investments in new advanced technologies that will 
not only take Americans farther into space than ever before, 
but also will provide spin off benefits and create high paying 
jobs here at home.
    Five years later, we have made landmark progress toward 
those goals. SpaceX's successful launch this week is a shining 
example.
    The budget you consider today furthers the goals that we 
share of extending our reach into space while strengthening 
American leadership here at home. It is an $18.5 billion 
investment that represents a leap into a future of greater 
discovery, job creation, and economic growth, as well as a 
healthier planet.
    Thanks to the hard work of our NASA team and partners all 
across America, we have made a lot of progress on our journey 
to Mars. In fact, we have now progressed farther on this path 
to sending humans to Mars than at any point in the history of 
NASA, and this budget will keep us marching forward.
    The support of this subcommittee and the Congress are 
essential to this journey. The International Space Station is 
the critical first step in this work. It is our springboard to 
the rest of the solar system, and we are committed to extending 
space station operations to at least 2024.
    Thanks to the grit, determination, and American ingenuity, 
we have returned ISS cargo resupply missions to the United 
States, insourcing these jobs and creating a new private market 
in low-Earth orbit.
    Under a plan outlined by the administration earlier in its 
term, we have also awarded two American companies, SpaceX and 
Boeing, fixed price contracts to safely and cost effectively 
transport our astronauts to the space station from U.S. soil.
    This will end our sole reliance on Russia. It is critical 
that we receive the funding requested in the 2016 budget so 
that we can meet our 2017 target date and stop writing checks 
to the Russian Space Agency.
    Our newest, most powerful rocket ever developed, the Space 
Launch System or SLS, has moved from formulation to 
development, something no other exploration class vehicle has 
achieved since the agency built the Space Shuttle.
    The Orion spacecraft performed flawlessly on its first trip 
to space this past December. The SLS and Exploration Ground 
Systems are on track for launch capability readiness by 
November of 2018, and the teams are hard at work on completing 
technical and design reviews for Orion.
    Our budget also funds a robust science program with dozens 
of operating missions, studying our solar system and the 
universe. New Horizons is preparing for its arrival at Pluto in 
July, and Dawn has entered into orbit around the dwarf planet 
Ceres.
    Before we send humans to Mars, robots are paving the way. 
We are at work on a Mars rover for 2020, and have begun 
planning a mission to explore Jupiter's fascinating moon, 
Europa.
    NASA is a leader in earth science and our constantly 
expanding view of our planet from space is helping us better 
understand and prepare for these changes. NASA has 21 research 
missions studying earth, and in the last year alone, we 
launched an unprecedented five more.
    We also are at work on humanity's first voyage to our home 
star, a mission that will repeatedly pass through the Sun's 
outer atmosphere. NASA's Hubble, Chandra, and Kepler Space 
Telescopes explore the universe beyond our solar system. 
Hubble's successor, the James Webb Space Telescope, is taking 
shape right now out in Maryland, and a new mission is in 
development to extend Kepler's pioneering work in finding 
planets.
    Technology drives science, exploration, and our journey to 
Mars. With the President's request, NASA will continue to 
maintain a steady pipeline of technology, to ensure that we 
continue to lead the world in space exploration and scientific 
discovery.
    NASA is also with you when you fly, and we are committed to 
transforming aviation by dramatically reducing its 
environmental impact, maintaining safety in more crowded skies, 
and paving the way toward revolutionary aircraft shapes and 
propulsion systems.
    Mr. Chairman, America's space program is not just alive, it 
is thriving. The strong support we receive from this 
subcommittee is making that happen. I particularly appreciate 
the generous fiscal year 2015 appropriations that you 
generated.
    The President said at the Kennedy Space Center, and I quote 
``For pennies on the dollar, the space program has improved our 
lives, advanced our society, strengthened our economy, and 
inspired generations of Americans.''
    NASA looks forward to working with the Congress to continue 
making this vision a reality.
    I would now be pleased to respond to your questions.
    [The statement and the President's budget request summary 
follow:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.
           
    Mr. Chairman and members of the subcommittee, I am pleased to have 
this opportunity to discuss NASA's fiscal year 2016 budget request. The 
President is proposing a fiscal year 2016 budget of $18.5 billion for 
NASA, building on the significant investments the administration has 
made in America's space program over the past 6 years, enabled through 
the strong and consistent support by this subcommittee and the 
Congress. This request will allow NASA to continue to lead the world in 
space through a balanced program of exploration, science, technology, 
and aeronautics research. NASA is an outstanding investment for our 
Nation not only because we uncover new knowledge, but because we raise 
the bar of human achievement, inspiring the next generation of 
scientists, engineers and astronauts.
    The fiscal year 2016 request includes $4,505.9 million for 
Exploration with $2,862.9 million for Exploration Systems Development, 
$1,243.8 million for Commercial Space Flight, and $399.2 million for 
Exploration Research and Development. This funding, with critical 
investment from each of NASA's mission directorates, supports NASA's 
plans to, as the President said in his State of the Union speech, 
continue our journey to Mars and push ``out into the solar system not 
just to visit, but to stay[.]'' NASA has made tremendous progress on 
this journey, and we will continue to progress, with building momentum, 
through the years to come.
    As part of our strategic, stepping stone approach to deep-space 
explorations, NASA is facilitating the development of a U.S. commercial 
crew transportation capability with the goal of launching NASA 
astronauts from American soil in the next couple of years. This 
initiative to facilitate the success of U.S. industry to provide crew 
transportation to low Earth orbit will end our sole reliance on Russia 
and ensure that we have safe, reliable and cost-effective access to the 
ISS and low-Earth orbit. The Commercial Products Contracts allowed 
potential providers to better understand and align with NASA human 
spaceflight requirements and gave NASA early insight into vehicle 
designs and approaches. NASA has now entered the development and 
certification phase with the award of two FAR-based, fixed-price 
Commercial Crew Transportation Capability (CCtCap) contracts to 
American companies to transport our Astronauts to and from the ISS. 
SpaceX and Boeing have laid out milestones with the goal of certified 
commercial crew capability in 2017. The contractors are committed and 
at work. Our approach has emphasized competition and redundancy to 
ensure that NASA's human safety and certification requirements are met, 
we achieve the best value for the American taxpayer, and we end our 
sole reliance on Russia for transportation services. Now, we need the 
funding necessary to execute this plan to completion. With continued 
support from the Congress, crews will again launch to the ISS from 
American soil by the end of 2017.
    Technology drives science, exploration and economic opportunity. 
NASA will continue to maintain a steady pipeline of technology to 
ensure that we continue to lead the world in space capabilities. NASA's 
fiscal year 2016 request includes $724.8 million for Space Technology, 
to conduct rapid development and infusion of transformative space 
technologies that enable NASA's missions and advance our country's 
dynamic aerospace industry. Over the next 2 years, NASA will execute 
several in-space demonstrations including: a deep space atomic clock 
for advanced navigation, green propellant, and four small spacecraft 
demonstrating pioneering new technologies. This summer, NASA plans to 
again test our Low Density Supersonic Decelerator off the coast of 
Hawaii to continue proving in flight the new technologies critical for 
landing larger payloads on the surface of the Red Planet. Informed by 
the results of fiscal year 2014 testing of solar array and thruster 
designs, NASA continues development of a high-powered solar electric 
propulsion capability to enable future exploration missions and meet 
needs of U.S. aerospace industry. This capability will be demonstrated 
on the Asteroid Redirect Mission. We will continue to progress toward a 
2019 demonstration of space-to-ground laser communications, a 
capability that both American industry and NASA mission teams are eager 
to explore and harness. But the most exciting piece of our technology 
investments is the broad portfolio of research grants and other early 
stage investments, where the new technologies that will change the way 
we operate in space have a chance to move from ideas to components, to 
demonstrations of new systems and capabilities. These early stage 
investments are building stronger links between NASA and academia, and 
providing unique opportunities for the NASA workforce to innovate.
    In December, NASA completed the first orbital test flight of the 
Orion crew vehicle, including a successful high speed reentry through 
the atmosphere. The Exploration Flight Test 1 (EFT-1) mission of Orion 
was nearly flawless. For the first time in a generation, a deep-space 
U.S. exploration vehicle has splashed down in the Pacific, and what we 
are learning from this test gives us increasing confidence in the 
systems we are designing.
    Just as we have recently tested Orion by sending it on a shorter 
version of its future missions, we are continuously testing and 
experimenting on the International Space Station (ISS) in preparation 
for long-term missions in deep space. The administration has committed 
to extending operation of the International Space Station to at least 
2024. The fiscal year 2016 request includes $4,003.7 million for Space 
Operations, including $3,105.6 million for ISS. Two commercial 
providers are now under contract to supply cargo to this critical 
asset, making the extension possible and giving us increasing 
confidence in our long-term strategy. On March 27, astronaut Scott 
Kelly began a 1 year mission aboard the ISS to learn more about how to 
live and work in space for the long term. We will compare his vital 
signs to those of his twin brother, Mark, here on Earth in a first-ever 
experiment using identical twins to learn more about the effects of 
living in space. This is just one example of the vital knowledge and 
technology that our outpost in space will provide over the coming 
decade. The Space Station is the cornerstone of our exploration 
strategy, a nearby outpost in space where humanity is taking its early 
steps on its journey into the solar system.
    For the next step on the journey, NASA is developing the required 
deep-space exploration infrastructure while we plan for the earliest 
missions. NASA has established Agency Baseline Commitments for the 
Space Launch System (SLS) and Exploration Ground Systems (EGS), each of 
which supports a launch capability readiness date for Exploration 
Mission 1 (EM-1) of November 2018. EM-1 is the first mission for SLS 
and Orion. NASA remains on schedule for this EM-1 launch readiness date 
for SLS and EGS. Baseline cost and schedule for Orion are now being 
developed. NASA's budget request provides the funding needed to keep 
SLS, Orion, and EGS on track. NASA will determine the integrated launch 
date for the EM-1 mission after all critical design reviews are 
complete, later this year. SLS and Orion are critical to human 
spaceflight beyond low-Earth orbit as part of an evolvable, 
sustainable, and affordable exploration program.
    The journey to Mars runs through cis-lunar space. NASA's initial 
deep-space mission, EM-1, will launch to a ``Distant Retrograde Orbit'' 
around the Moon. NASA will use this region of space to test and 
demonstrate flight and mission operations and staging of human-rated 
vehicles farther from Earth than ever before. Crewed Orion missions 
launched on the SLS in the 2020s will establish our capability to 
operate safely and productively in deep space. In this `proving ground' 
of cis-lunar space, we will prepare for future deep space missions that 
will lead us to Mars. In late 2020, NASA plans to launch an advanced 
solar electric propulsion (SEP) based robotic spacecraft to approach an 
asteroid and remove a multi-ton boulder. After removing the boulder, 
the SEP spacecraft will redirect the asteroid in a demonstration of 
slow push deflection, a technique relevant to potential future 
planetary defense missions, and take the asteroid boulder to a stable 
Distant Retrograde Orbit around the moon. In 2025, launched by SLS, 
Orion will carry a two person crew on a 24-25 day mission to rendezvous 
and dock with the robotic SEP spacecraft in cis-lunar space. NASA will 
maneuver the integrated Orion and robotic vehicle stack in lunar orbit 
for about 5 days. The crew can then conduct Extra Vehicular Activities 
(EVA) to examine the asteroid boulder and collect samples before 
returning to Earth. NASA's plan leverages development efforts from 
existing programs across NASA mission directorates, and provides a 
critical opportunity to exercise our emerging deep space exploration 
capabilities.
    As NASA strives to achieve the goal of sending humans to Mars, it 
is important to remember we are already there. For 40 years, 
increasingly advanced robotic explorers have studied the Red Planet. 
This has dramatically increased our scientific knowledge and helped 
pave the way for astronauts to travel there. Our latest Mars 
spacecraft, MAVEN (Mars Atmosphere and Volatile EvolutioN), arrived 
last September to study the upper atmosphere and joined a fleet of 
orbiters and rovers on the surface. Next year, we will send the InSight 
(Interior Exploration using Seismic Investigations, Geodesy and Heat 
Transport) lander to study the planet's deep interior. In 2020, a new 
rover, building on the incredible success of Curiosity, will help us 
prepare for the arrival of humans at Mars. The Mars 2020 rover will 
address the highest priority Mars science objectives recommended by the 
Planetary Decadal Survey and will carry exploration technology 
investigations focused on capabilities such as in-situ resource 
utilization that will help in our planning for future human missions.
    Mars is a key destination, but only one point on humanity's journey 
of discovery. Ours is a journey of understanding reaching through our 
Earth system, across our solar system, and beyond, deep into the 
universe. The fiscal year 2016 budget request includes $5,288.6 million 
for Science to continue that mission, with $1,947.3 million for Earth 
Science, $1,361.2 million for Planetary Science, $709.1 million for 
Astrophysics, $620.0 million for the James Webb Space Telescope, and 
$651.0 million for Heliophysics.
    NASA's Planetary Science program continues to expand our knowledge 
of the solar system, with spacecraft in place from the innermost planet 
to the very edge of our Sun's influence. After 9 years and 3 billion 
miles of travel, the New Horizons spacecraft awakened and began to 
prepare for its arrival in the Pluto system in July. Right now, Dawn 
has entered into orbit around the dwarf planet Ceres. Juno is speeding 
toward Jupiter where it will not only send back unprecedented data from 
a first ever polar orbit of our giant neighbor, but will also 
demonstrate how solar power can work at great distances from the Sun. 
With the fiscal year 2016 request, NASA will continue development of a 
robotic asteroid rendezvous and sample return mission, dubbed OSIRIS-
REx, planned for launch in 2016. OSIRIS-REx will approach the near-
Earth Asteroid Bennu, map the asteroid, and collect a sample for return 
to Earth in 2023. Looking further to the future, NASA is planning a 
mission to explore Jupiter's fascinating moon Europa, selecting 
instruments this spring and moving toward the next phase of our work.
    The most important planet we study is the one on which we live--
Earth. Today, 21 NASA-developed research missions orbit Earth and 
provide a quantitative understanding of our complex planet, its origins 
and its future. In the last year, we have launched an unprecedented 
five Earth science missions, starting with the Global Precipitation 
Measurement Core Observatory (GPM) that already has observed Hurricane 
Arthur's brush of the East Coast last July. The Soil Moisture Active 
Passive (SMAP) mission, launched in January, will give us for the first 
time ever, a picture of soil moisture on a global scale, allowing 
scientists to monitor droughts and predict flooding caused by severe 
rainfall or snowmelt. New research missions in formulation include 
PACE, the Pre-Aerosol, Clouds and ocean Ecosystem continuity mission, 
that observes ocean color, aerosols, and clouds; NISAR, the NASA-ISRO 
Synthetic Aperture Radar mission, being developed in partnership with 
the Indian Space Research Organization to measure complex processes 
such as ecosystem disturbances and ice-sheet collapse; and CLARREO, the 
Climate Absolute Radiance and Refractivity Observatory Pathfinder that 
will begin pre-formulation this fiscal year.
    The Landsat series of satellites is a cornerstone of our Earth 
observing capability. The world relies on Landsat data to detect and 
measure land cover/land use change, the health of ecosystems, and water 
availability. The President's fiscal year 2016 request recognizes 
Landsat's critical importance and sets out a multi-decadal plan for an 
Earth-observing architecture that ensures data continuity and 
reliability. The Sustainable Land Imaging program partnership with the 
Department of the Interior's U.S. Geological Survey will include flight 
of a thermal-infrared free flyer and an upgraded Landsat-9 mission, 
while infusing new technological developments for future missions and 
ensuring consistency with the existing 42-year Landsat data record.
    Twenty-five years ago this April NASA deployed the Hubble Space 
Telescope. Hubble is still doing amazing science, and the last textbook 
that will have to be revised because of its discoveries has not yet 
been written. In just slightly over 3 years, NASA plans to launch the 
James Webb Space Telescope (JWST), Hubble's successor, and continue to 
reveal the unknown with the largest observatory ever put into space. 
This amazing telescope is taking shape right now in suburban Maryland, 
where this year the mirrors will be installed on the telescope 
backplane. The ``heart'' of the telescope that holds its instruments 
successfully completed a nearly 4-month test in a cryogenic thermal 
vacuum chamber. NASA's Astrophysics program operating missions include 
the Hubble, Chandra, Spitzer, and Kepler telescopes, the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) airborne observatory, and 
other missions that together comprise an unrivaled resource for the 
study of our universe. With the fiscal year 2016 request, NASA will 
continue development of the Transiting Exoplanet Survey Satellite 
(TESS). TESS will extend the pioneering work of the Kepler Space 
Telescope, which showed us that virtually every star in the sky has a 
planetary system. TESS launches in 2018 and will discover rocky 
exoplanets orbiting the nearest and brightest stars in the sky in time 
for Webb to conduct follow-up observations. NASA will also continue 
pre-formulation of the Wide-Field Infrared Survey Telescope (WFIRST), 
the top priority for large-scale missions of the most recent National 
Academy of Science Decadal Survey in Astronomy and Astrophysics.
    Just as the most important planet that we study is the Earth, the 
most important star that we study is our own. NASA's Heliophysics 
Program is monitoring the Sun, near-Earth space, and the space 
environment throughout our solar system, with 29 spacecraft making up 
18 missions. These missions work toward one goal: to better understand 
the Sun and its interactions with the Earth and solar system, including 
space weather. The fiscal year 2016 request supports development of 
NASA's Solar Probe Plus (SPP) mission, planned for launch in 2018. SPP 
will be humanity's first voyage to our home star and will repeatedly 
pass through the Sun's hot outer atmosphere. NASA will also begin 
science operations of the Magnetospheric Multiscale (MMS) mission to 
investigate how magnetic fields around Earth connect and disconnect, 
explosively releasing tremendous amounts of energy in a process called 
magnetic reconnection.
    NASA's Aeronautics research is making air travel cleaner, safer, 
and more efficient. Every U.S. aircraft and U.S. air traffic control 
tower has NASA-developed-technology on board. NASA's fiscal year 2016 
budget request includes $571.4 million for Aeronautics to fulfill the 
Agency's strategic research agenda, addressing the most critical 
challenges facing the aviation sector. NASA is improving safety and 
reducing development costs of new aviation technologies, developing 
integrated air traffic management tools to expand airspace capacity 
with more fuel-efficient flight planning and diminish delays, and 
researching next generation aircraft configurations, efficient engines, 
and low carbon propulsion systems such as hybrid electric technology 
systems. NASA is enabling the future of unmanned and autonomous flight 
by providing technical data and analysis to directly inform FAA 
rulemaking related to Unmanned Aircraft Systems (UAS), funding 
technology development to address emerging needs for UAS integration, 
and initiating fundamental research in autonomous systems for aviation. 
Also in fiscal year 2016, NASA is initiating a series of flight 
demonstrations focused on environmental performance, and expanding our 
portfolio of rapid-turnover feasibility demonstrations to infuse new 
ideas into our research program. NASA's aeronautics research continues 
to play a vital leadership role to air travel and commerce by enabling 
game-changing technologies and innovation that allow the U.S. aviation 
industry to continue to grow and maintain its global leadership role. 
NASA is truly with you when you fly.
    NASA's spacecraft are voyaging beyond the solar system, we are 
developing a mission to pass right through the Sun's atmosphere, and 
our spacecraft are exploring the planets in between. The venerable 
Hubble Space Telescope is looking back into deep time, Kepler is 
demonstrating the prevalence of planets around other stars, and the 
James Webb Space Telescope is on the way. An early version of Orion 
splashed down in the Pacific, Astronaut Mark Kelly is preparing for a 1 
year mission in space, and the Space Launch System is on track for a 
November 2018 launch capability. NASA is embracing its mission as never 
before. NASA looks forward to working with the subcommittee and the 
Congress to make this vision a reality.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other members of the subcommittee.
                                 ______
                                 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                    SPACE LAUNCH SYSTEM TEST LAUNCH

    Senator Shelby. Thank you, General Bolden. The Government 
Accountability Office (GAO) found that NASA's cost estimates 
for the SLS and Orion projects do not extend beyond the first 
flight for the combined system, and the 2016 budget before us 
bears this out.
    GAO states that NASA's budget estimates do not include 
production costs for the second test flight scheduled for 2021, 
the development costs for upper stage development for SLS, or 
production operations and sustainment costs for Orion beyond 
the first test flight. GAO further states that NASA has 
continued to request funding that does not meet requirements.
    In the case of SLS, I cannot agree more with GAO's 
assessment of NASA's inadequate funding proposal. My question, 
General, is this: considering NASA will have to conduct 
multiple test flights for SLS, which require additional 
development and production, why does the 2016 budget only 
account for the first test launch of SLS?
    Mr. Bolden. Mr. Chairman, the 2016 request supports what we 
project in the budget horizon as required over the next 5 years 
to get us to a sustained program, of deep space exploration 
using SLS and Orion.
    You mentioned or I think you mentioned charts and graphs, 
and we are not about charts and graphs. We are talking about 
hardware. The barrel for the engine section of SLS was welded 
together at Michoud Assembly Facility, and other hydrogen and 
oxygen tanks are being done. We launched Orion in December. We 
hot fire tested the RS-25 engines down in Mississippi at 
Stennis, as Senator Cochran has said. We fired the next 
milestone test on the five segment solid rocket booster.
    I would say our budget as we have run it out has us on the 
path that we think is necessary to get humans back to deep 
space and then onto Mars.

                           UPPER STAGE ENGINE

    Senator Shelby. In the detailed portion of the 2016 budget 
for SLS, NASA only proposes development funds, as I understand 
it, through 2018 for an upper stage engine with no funding 
beyond that date. There is a known need to develop a human-
rated upper stage engine for the second test flight. The upper 
stage, it is my understanding, is on the critical path to the 
second test flight of SLS in 2021, yet it is my understanding 
there is no mention beyond preliminary planning for an upper 
stage required for a mission that is expected to launch say 6 
years hence.
    The question is this: why are no funds identified for the 
anticipated development for an upper stage when that 
development must be worked on in earnest during 2016?
    Mr. Bolden. Mr. Chairman, in prioritizing the work that we 
need to do over this next budget horizon, we recognize that an 
exploration upper stage is something that will be necessary.
    You are absolutely correct in that if we had unlimited 
funds, we would begin development of the exploration upper 
stage today. We are given a budget that is no longer flat, I 
will say, people used to say flat was the new ``up,'' but the 
new up is starting to look like you are going to let us work 
inflation in, so it is no longer flat. I think the budget that 
we submitted presents a balanced portfolio of missions for the 
agency that show us on a time line to get to Mars in the 2030s.

                    NASA'S RELATIONSHIP WITH RUSSIA

    Senator Shelby. I am on my last area that I will get into 
momentarily, the International Space Station. When we discussed 
the budget here last year, I asked about our relationship with 
the Russians in regard to the space station and what would 
happen if they were to end the partnership.
    At that time, you said, and I quote ``Should we or the 
Russians choose to pull out, the International Space Station as 
we know it no longer exists.'' Those were your words, General.
    The Russians have indicated that their intent is to 
separate their portion of the station in 2024. We know that is 
down the road. That essentially gives the facility an 
expiration date.
    My question is this: has Russia formally notified you that 
this is their intent, to separate their portion of the space 
station in 2024?
    Mr. Bolden. Quite the contrary, Mr. Chairman. In my 
meetings with my counterpart, Mr. Komarov, in Baikonur on the 
periphery of Scott Kelly's launch about 3 weeks ago, he made 
what I would not call a startling announcement, but he made a 
very encouraging announcement that contrary to what we heard, 
the rhetoric from the Russians, that they were committed to the 
International Space Station through 2024, and they did not 
intend to pull pieces off and start their own space station.
    Senator Shelby. Did he indicate that would be a hard 
commitment or a soft one?
    Mr. Bolden. Mr. Chairman, it is no harder a commitment than 
ours. I think if everyone will remember, when the President 
allowed me to propose that we go to 2024, we said at least 
2024.
    The only hard date we know about the space station today is 
2028 because that is as far as the engineering analyses of all 
the partners say that 2028 is about as long as we can keep the 
space station flying, but we do not want to keep the current 
space station flying forever.
    We want to get NASA and other agencies out of low-Earth 
orbit and onto exploration. The vision that we see----
    Senator Shelby. The space station was never constructed to 
be there in perpetuity, was it?
    Mr. Bolden. Mr. Chairman, that is absolutely correct. We 
have never built anything intended to be there in perpetuity. I 
am smiling at Senator Mikulski. We did not build the Hubble 
Space Telescope to be there as long as it has been, but thanks 
to her shepherding the program. we are getting ready to 
celebrate 25 incredible years.

                   JAMES WEBB SPACE TELESCOPE (JWST)

    Senator Shelby. We are also moving to another stage, past 
the Hubble, because of what we found in the use of having the 
Hubble.
    Mr. Bolden. Again, I think you are helping me to emphasize 
the critical importance of your ranking member.
    Senator Shelby. She did a great job.
    Mr. Bolden. She chewed me out and I appreciated it when I 
became the NASA Administrator. It was not really chewing me 
out.
    Senator Shelby. Appreciated years later.
    Mr. Bolden. She told me she wanted me to straighten out the 
James Webb Space Telescope, and we relooked at the program. I 
came in, and I went to the President. I came to Senator 
Mikulski and said we are not going to make it, and we need to 
redo this program, and we are now on schedule on cost to launch 
the James Webb Space Telescope in 2018, and that is primarily 
because of the work and the encouragement of Senator Mikulski.

                         INTERNATIONAL PARTNERS

    Senator Shelby. Thank you. What is the level of commitment 
from some of our other international partners to operate the 
space station beyond 2020?
    Mr. Bolden. Now that we have the Russians on record saying 
they are with us through at least 2024, other partners are 
beginning to feel better. That is what they were waiting for, 
to see the two primary partners get on board with each other. I 
expect that over the coming year or two, just as it was to get 
everybody to go to 2020, I think in the next couple of years, 
you will see that all the partners will agree that 2024 is the 
horizon for the International Space Station now.
    Senator Shelby. Is it even possible to operate as you know 
it the space station without the Russian segments should we 
choose to operate the station on our own?
    Mr. Bolden. Yes, sir.
    Senator Shelby. Okay. Senator Mikulski.

                   GODDARD SPACE FLIGHT CENTER BUDGET

    Senator Mikulski. Thank you, Mr. Chairman. Administrator 
Bolden, first of all, thank you for your kind words about me 
and what I have done and the Hubble Telescope.
    I think also it is a tribute to really bipartisanship, and 
I know really very early in my Senate career, I became the 
chairman of the Subcommittee on VA/HUD, of which NASA was part 
of. My colleague at the time and vice chairman was Senator Jake 
Garn. I cannot say enough about the appreciation I had for 
Senators Garn and John Glenn. Bill Nelson was not here. It 
showed how the astronaut senators and I with Goddard Space 
Flight Center really worked on the whole idea of a balanced 
space program.
    What we did initially to fix Hubble was because we worked 
on a bipartisan basis, and the efforts of Senator Garn and with 
Senator Garn, we had the credibility, although I had the gavel, 
they had the credibility, and then NASA had the know-how.
    That is really kind of the spirit of the way it is, and I 
wanted to just acknowledge the role that others have played. We 
have kept that going with Senator Shelby.
    Now, as we also look, and you commented on the New 
Horizons, yes, the press is reporting as is JPL, that we are 
really now pretty close to that Pluto thing, and by all 
accounts and reports, technological reports, we are absolutely 
on target for its arrival at Pluto on target.
    I want to be sure that our best days are not behind us, and 
we are committed to a balanced space program. The human space 
flight, a reliable transportation system for our astronauts to 
go where they have not, and also to do the kind of servicing 
that will be necessary, along with space science.
    Of course, you know I am going to ask you about Goddard. 
When I saw the President's budget, in which Goddard was funded 
at $324 million below fiscal year 2015, when they have 32 on 
orbit missions, when they make sure that Hubble is targeted and 
maximizing its use in its current age and stage, and then 
managing the satellite construction for two of the major 
National Oceanic and Atmospheric Administration (NOAA) 
projects, along with the James Webb, they have a full plate, 
and yet you cut them $300 million.
    Can you tell me, number one, why, and what are the 
consequences of that? I am very apprehensive that they are 
doing all this great work and they have been cut roughly 10 
percent.
    Mr. Bolden. Senator, our projection for this year, for this 
fiscal year, at the end of the year, because we do not 
formalize some projects until we are well into the fiscal year, 
but as a result of that, our estimate is that the Goddard Space 
Flight Center will end up with about $2.6 billion, their 
portion of the NASA budget.
    The projection for fiscal year 2016 is given the work they 
are about to do, that they are embarking on, an example would 
be if you told me today in this hearing to go ahead and 
authorize the beginning on the tiers for continuous land 
imaging, Goddard would start tomorrow morning. That is not in 
their portfolio right now.
    We anticipate that Goddard will again in fiscal year 2016, 
when all is said and done, end up managing $2.6 billion of 
projects. It is actually a preliminary look at what we have 
based on the programs we have directed----
    Senator Mikulski. Are you saying you are going to give them 
more work during the year and then as the year goes on, you are 
giving them more money?
    Mr. Bolden. They get more work as the year goes by. 
Subsequently, they get more money. They get responsibility for 
more money.
    Senator Mikulski. In other words, if they get more 
responsibility, does the resource follow the responsibility?
    Mr. Bolden. Yes, ma'am; it does. Yes, ma'am. I was going to 
get cute, but I will not.
    Senator Mikulski. No, do not.
    Mr. Bolden. I am not.
    Senator Mikulski. In terms of time, we have a lot of ground 
to cover, but space to cover.
    Mr. Bolden. Yes, ma'am.

                          SATELLITE SERVICING

    Senator Mikulski. Which then takes us to an area called 
``satellite servicing.'' To my colleagues who are also 
interested in national security, I know we are worried about 
our satellites, number one, not for the purposes of this 
hearing, it would be inappropriate, but we worry about the 
Chinese and what they are doing in terms of any satellite 
technology, so that is one dimension not for this hearing, and 
of course, across committees.
    Also, we have satellites that our Government has, 
particularly science satellites, and our private and even non-
profit sector have. Goddard has been developing a technology 
and workforce to satellite servicing, so they do not end up 
space junk. That was funded at $130 million in fiscal year 
2015, and they have been cut by 50 percent to $65 million.
    Could you tell me the rationale for that, or do you not 
want to do satellite servicing?
    Mr. Bolden. Senator, we sincerely--I think we are all on 
the same sheet of music. No one is more dedicated, for example, 
to SLS and exploration than I. I share your enthusiasm there.
    I share the enthusiasm for making sure that this Nation is 
second to none when it comes to being able to maintain and 
secure our satellites. With that in mind, I would request that 
you allow me to come and have a conversation with you, and I 
can bring staff members or some of your staff, so we can talk 
about satellite servicing and the challenges that we face 
there.
    It is my belief that with industry, companies like 
MacDonald, Dettwiler and Associates Ltd. (MDA), like Alliant 
Techsystems Inc. (ATK), who already have hardware in hand that 
does some of the functions we know we are going to need, and 
working with the Defense Advanced Research Projects Agency 
(DARPA) collaboratively----
    Senator Mikulski. You come and talk to me.
    Mr. Bolden. Yes, ma'am. I would really appreciate that. To 
be quite honest, I want to be in sync with the subcommittee, 
and I will admit, I am the one person in this room who is 
probably not in sync with you all, because for 4 years I have 
pleaded with people to tell me who the customer is going to be, 
and the potential customers keep telling me they would much 
rather have me be their customer.
    I want to make sure that we are not at odds with American 
industry. I need to talk to you, if that would be good. I think 
we can get in sync.
    Senator Mikulski. My time is up. I have another question 
about Wallops. I say to my chairman of this subcommittee and 
the chairman of the full committee, satellites are on my mind, 
and they are really a big budget, not only in the NASA 
committee.
    Whether it is NOAA or the Department of Defense (DOD), I am 
worried that we do not know how to build them and maintain them 
and service them. We often run into satellite boondoggles.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. That is one thing. The second thing is 
then when they are up there, what do we do with them when they 
are no longer functional and can they be rescued. And third, 
the national security protection of key satellites from those 
nation states or others that would have a predatory intent.
    I have satellites on my mind. I would like it in the 
budget.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Mr. Chairman, I have used up a lot of 
time.
    Senator Shelby. It is okay. Senator Cochran.

                       SPACE EXPLORATION PROGRAM

    Senator Cochran. Mr. Chairman, thank you. Welcome again to 
our hearing. We appreciate the cooperation that we have 
received over time in helping to share our views with the 
Administration officials who have come before our subcommittee 
requesting funding for the programs and activities. It is a 
pleasure to work with you on all these challenges.
    As NASA continues to work on development of the space 
launch system, are you satisfied that the Administration and 
the Congress are constructively working together to help reach 
our goals of our space exploration program?
    Mr. Bolden. Senator Cochran, because I am a part of the 
Administration, I will say I am not satisfied that I have 
sufficiently worked with this subcommittee, and I pledge I will 
do better.
    It is like I mentioned to Senator Mikulski, I have pledged 
that I will be here much more than I have been, communicating 
with members of the subcommittee. I am pleading for the Senate 
to confirm Dr. Dava Newman as my deputy because I need the 
help. I think that will free me up to be able to spend more 
time with members of the subcommittee.
    As I said in my opening statement, together, the 
Administration and this Congress have done an incredible job 
over the last 5 years. I want the members of the subcommittee 
to take credit for what you have done, to be quite honest. It 
is like trying to get the Administration to take credit. It 
seems like we are in the middle, and we are really happy about 
what has been done. We are not fooling ourselves that we have 
done everything. We think we are the best in the world at what 
we do, but that is not good enough.
    I know that is a jumbled answer to your question, but I do 
not want you to think I am satisfied. I am not. I will do 
better.

                     ENGINE TESTING INFRASTRUCTURE

    Senator Cochran. Specifically--thank you for that. The 
budget request provides information for us that is very 
helpful. We want to be sure we are doing the right thing, too. 
I want to know what your reaction is to whether we are 
providing adequate resources for the engine testing 
infrastructure to support the development of the Space Launch 
System, that would be a credit to our country.
    Mr. Bolden. Senator, this subcommittee and the Congress 
have provided everything that we have asked for. I do not have 
any complaints about that. I would point out when you talked 
specifically about Stennis, the fact that we have had testing 
done by SpaceX, Aerojet Rocketdyne, DOD is now talking to us 
about doing testing at Stennis, Blue Origin is now doing 
testing at Stennis.
    That in itself says we are being successful at capitalizing 
on the ability of American industry to augment what NASA does, 
so that we can utilize the funds that this subcommittee gives 
us to get on with the business of going into deep space.
    Getting to Mars is our main objective right now. In order 
to do that, we need other things. We need the International 
Space Station to be viable and sustainable. We are comfortable 
we are okay there. We keep taking little bits of money away 
from the station to do other things in space operations that 
make me nervous sometimes.
    We have to have the money we requested for commercial crew 
because that will finish off NASA getting out of low-Earth 
orbit access, and we will have successfully turned that over to 
American industry, and that puts us one step farther to being 
Earth independent. Not there, but one step farther.
    We then need to move out into what we call the ``proving 
ground,'' going back to space, to orbit around the Moon for 
about a 10-year period of time to develop the technologies that 
we need to move onto Mars.
    We have a lot of work to do, but this subcommittee, I 
cannot complain. I thank you for the funding you have given us.
    Senator Cochran. We appreciate that. We want to continue to 
do what is necessary to ensure a robust engine testing 
infrastructure as Stennis, and if we think they have earned the 
right to continue to contribute up to date military 
intelligence capabilities that would be a credit to our 
country, and we are looking to develop and test even new rocket 
engines in the future.
    What is your reaction to that? Is there a future?
    Mr. Bolden. Senator Mikulski said she wanted to make sure 
that our best days were not behind us. Our best days are in 
front of us, I can promise you that. I am not smiling and 
sounding optimistic because I am trying to look good or 
something. I am excited about the future.
    When I travel around to college campuses or high schools 
around the country or around the world, young people are really 
excited about what we are doing. They see this is their future. 
It is not ours. We are passing through. There is no doubt in my 
mind, Senator, all of you, that our best days are ahead of us.
    Senator Cochran. It looks like we have a new city there, 
Stennis.
    Mr. Bolden. It is the Federal city.
    Senator Cochran. As well as the testing facility.
    Mr. Bolden. Yes, sir.
    Senator Cochran. We appreciate the fact that it has grown 
to become a Federal city due to the multiple Federal tenants 
that are there and seemed to be happy with what is going on, 
access to people, a beautiful view along the Mississippi Gulf 
Coast to boot.
    Mr. Bolden. Yes, sir.
    Senator Cochran. Thank you very much.
    Mr. Bolden. Yes, sir.
    Senator Shelby. Senator Capito.

     INDEPENDENT VERIFICATION AND VALIDATION (IV&V) FACILITY

    Senator Capito. Thank you, Mr. Chairman. Thank you to the 
Administrator. General Bolden, we are really proud of the work 
that NASA does in West Virginia with the IV&V Program in 
Fairmont. The employees there are making a great contribution 
to our State, and I think to your agency, and to our country. 
It seems to me the service they provide is critical to complete 
your agency's objectives, both for the manned and unmanned 
missions. Can you share some thoughts about IV&V and what you 
think the future is for that part of NASA?
    Mr. Bolden. The facility in West Virginia, but IV&V in 
general, in the broadest sense, because a lot of its work is 
not just done there, but done other places around the country. 
The work that is done for NASA is incredible. Again, the 
measure of your success or the measure of respect people show 
for you is to have outside organizations come to you and ask 
for assistance. We finished off the work we were doing for 
Homeland Security, for folks in New York City, so there have 
been other outside organizations that have asked for help that 
IV&V has been able to provide for them. They provide a very 
necessary capability to this agency.
    Senator Capito. Thank you. They also in their program, as 
you probably know, are inspiring students and educators in West 
Virginia, have over 100 educator workshops that they 
participated in, and have had a good impact.
    One of the areas that I am interested in and because I am 
the co-chair of the recently formed Diversifying Technology 
Caucus, you know, we all have a caucus in a different name, I 
am a science major myself, and there is a great concern, and I 
share this concern, and you spoke about young people, a lot of 
the STEM education is not as diversified, both by females and 
minorities, what does NASA look like? You have a lot of science 
majors over there. I know you do not have this at the tip of 
your fingers. I am just curious.
    Mr. Bolden. Unfortunately, I have it at the tip of my 
finger because I am not happy.
    Senator Capito. Okay; good.
    Mr. Bolden. We at NASA feel we should be the model for 
every other agency in the Federal Government, and as I said 
before, we have been the best place to work in Government for 
the past 3 years based on the Employee Viewpoint Survey, but we 
are worried. I am worried about the inability to maintain, to 
retain women and minorities in senior levels of leadership in 
the STEM fields.
    The Deputy Associate Administrator, my chief scientist, 
Center Director Ellen Ochoa, Astronaut Cady Coleman, I have 
people all over trying to figure out what we are not doing 
right. We are probably better than most other Federal agencies, 
but that is not satisfactory.
    Senator Capito. If you have the figures, since you 
mentioned it----
    Mr. Bolden. Let me get it to you, so I do not guess.
    [The information follows:]

               Diversity of NASA Scientists and Engineers

                            As of April 2015

Explanation of terms and acronyms:

AAPI = Asian American and Pacific Islander. The percentage of Native 
Hawaiian and Other Pacific Islanders in the science and engineering 
civilian labor force is so small that meaningful comparisons with 
NASA's workforce could not be made if they were reported in a separate 
category (i.e., everything rounds to zero); they are therefore combined 
with Asian Americans for the purpose of comparing NASA with the RCLF.

AIAN = American Indian/Alaska Native

AST = Aerospace Technologist. AST is a special designation approved by 
OPM for the types of scientists and engineers hired by NASA. It is 
NASA's main mission critical occupational category.

RCLF = Relevant Civilian Labor Force (the portion of the 2010 civilian 
labor force that most closely matches the science and engineering 
workforces at NASA. There is one RCLF calculated for NASA Engineers and 
one calculated for Physical Scientists because the demographic 
diversity for these occupational categories is quite different. The 
RCLF is the benchmark used to compare NASA's diversity with that of the 
available technical labor pool. Note: for senior level positions, a 
different benchmark is used, namely the total NASA AST workforce. The 
logic is that, for example, if 8 percent of NASA's AST workforce is 
African American, then approximately 8 percent of NASA's senior AST 
positions should be African Americans. This is an internal benchmark, 
as opposed to the RCLF, which is an external benchmark.

RNO = Race/National Origin

SES = Senior Executive Service

SL = Senior Level

ST = Senior Technologist

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        DIVERSIFYING TECHNOLOGY

    Mr. Bolden. I can tell you the mix of women in the STEM 
field marries what it is in society, and that is why I say that 
is unacceptable.
    Senator Capito. It is unacceptable.
    Mr. Bolden. We have 51 percent women in the population and 
we are in the low teens of percentage of women in STEM. That 
does not say 51 percent of the STEM workforce ought to be 
women, but it ought to be better than 13 or whatever it is.
    Senator Capito. I would suggest, and I think the IV&V 
Program has done this by doing educator outreach--for some 
reason, it is probably the same thing Senator Mikulski and I 
have, we get the question all the time, why are there not more 
women in the Senate, why are there not more women in public 
service.
    It is one of these things that the numbers have to feed on 
one another and one another, and it is a slow progress. I think 
by starting early, K through elementary, K through three, you 
really do have to start there, because when you see what is 
coming at our young people in terms of how they can get a lot 
of knowledge from their phones and everything else, their minds 
are forming, I think, earlier on what direction they want to 
go.
    I would love to partner with NASA in this endeavor on 
diversifying technology. I think it is a natural spot. Since we 
have a good presence in Fairmont, that might be a good jumping 
off place for some kind of pilot programs to be able to inspire 
our young women and more minorities to join this exciting field 
that can be very, very lucrative at the same time and very 
stable.
    Mr. Bolden. Yes, ma'am.
    Senator Capito. I thank you for your service. Thank you.
    Senator Shelby. Senator Mikulski.

                       JAMES WEBB SPACE TELESCOPE

    Senator Mikulski. Mr. Chairman, just one question and one 
comment. The James Webb Space Telescope, you are exactly right, 
Administrator, that we were deeply troubled about the Webb, 
that there were cost overruns, could we meet both the 
technological targets as well as the fiscal targets.
    Could you tell the subcommittee the status of the James 
Webb and have you also addressed the GAO questions about 
schedule reserves and the cryocooler to make sure it--as you 
know, there is the GAO report, some press reports, and flashing 
yellow lights.
    Could you tell us are you on target, and have you addressed 
these concerns raised by these outside oversights?
    Mr. Bolden. Senator, I would venture to say we are on 
target, and we are on target for one primary reason, and that 
is after I promised you, the responsibility for the James Webb 
Space Telescope came into the Office of the Administrator. 
First, we had Chris Scolese as the Associate Administrator, and 
now Robert Lightfoot, and in their respective roles, they were 
representing me in James Webb almost every day.
    Chris Scolese is now at the Goddard Space Flight Center 
that has primary responsibility for it. Chris is in it every 
single day. I now have a monthly tag up with Wes Bush, the CEO 
of Northrop Grumman, because we both agree on the critical 
importance of the James Webb Space Telescope, not just to this 
Nation but to the world, but also it is critical for both him 
and me to demonstrate we know what the heck we are doing.
    If we cannot deliver it on time and on budget or under 
budget, then it says there is something wrong. We are concerned 
about the technological challenge of the cryocooler, but we 
think that is getting back on track.
    We still have about a 10 month cushion in the schedule, but 
I caution people----
    Senator Mikulski. What does a cryocooler do?
    Mr. Bolden. It is actually what enables the telescope to go 
down to almost absolute zero. It takes it to really cold. It is 
going to operate a million miles away from Earth, and it is an 
infrared imaging telescope. The reason why it is so phenomenal 
and that it is going to dwarf the capability of Hubble is 
because although it only operates in the infrared range, 
keeping it as cold as we do, it is going to be able to look 
into the atmosphere of distant planets around the billions of 
distant stars, some that are not even in our own Galaxy. That 
is what is going to make it really, really good.
    It would still be phenomenal without it, but that is not 
what we----
    Senator Mikulski. Presuming this actually happens, do you 
believe the completion and successful launch and operation of 
the James Webb will secure America's preeminence in astronomy 
for the next 30 or 40 years?
    Mr. Bolden. Senator, there is no question. Now that we are 
on the Hubble anniversary, I tell people about our crew before 
we launched on the deploy mission, we knew, we absolutely knew 
that Hubble was going to do something great. We had no clue. If 
anybody had asked us if it was going to have taken its place in 
the pantheon of great scientific instruments, we did not know 
that. We are very confident that James Webb will further 
revolutionize the fields of planetary science, astrophysics. We 
will know more about this universe as a result of James Webb 
after 2018 than anybody ever imagined.
    Senator Mikulski. I am glad I went into orbit.
    Mr. Bolden. You and me both.
    Senator Mikulski. Thank you very much.
    Senator Shelby. Thank you, Senator Mikulski. I think 
Senator Mikulski knew it. She knew what the potential was or 
she would not have pushed so long and so hard and successfully, 
and we should all be grateful. She must be akin to her cousin, 
Copernicus, in looking ahead in some way.

               COMMERCIAL CREW MILESTONE SCHEDULE DELAYS

    General, I have a couple more questions. NASA entered into, 
in my understanding, two milestone based contracts worth up to 
$6.8 billion in September of this last year to finish the 
development and testing of crewed vehicles.
    Aside from five milestones that NASA required, the 
contractors were able to add milestones and time lines of their 
own, with payment only given when a milestone is achieved. NASA 
has already publicly stated that a significant number of the 
milestones are being altered. In other words, they have not met 
them, some with delays of 6 months or more.
    A lot of us are concerned by the potentially large number 
of changes and delays so soon in the program. My question is 
this: the subcommittee has seen the first quarter report on the 
Commercial Crew Program. Who asked for the changes to the 
milestones, and how will altering the milestone schedules delay 
the expected date for taking our astronauts to the space 
station?
    Mr. Bolden. Mr. Chairman, I will get you specific answers 
for the record.
    [The information follows:]

           Commercial Crew Program Milestone Schedule Delays

    As reported to the Committee, both Commercial Crew Transportation 
Capability (CCtCap) companies updated their schedules to reflect 
additional design maturation and to allow sufficient time to complete 
system development and certification. NASA anticipated a number of 
these types of changes during this timeframe because the original 
contract milestones were established when the companies submitted their 
CCtCap proposals, over a year ago. Such changes are not indicative of 
poor company performance, but are viewed by NASA to be the normal 
evolution of refining subcontract schedules and finalizing development 
plans after contract award. Accordingly, the companies requested the 
milestone date changes, and NASA has reviewed and approved them. We 
will continue to work with the companies to adhere to the new overall 
schedule. We will identify any possible changes quickly making minor 
milestones adjustments only as required. This will protect overall 
schedule while maintaining a safe configuration for our crews.
    As reported in the first Quarterly Report, the Certification Review 
milestone date (i.e., the expected date for NASA certification of the 
companies systems to transport NASA personnel to the ISS) for Boeing 
was changed from August 2017 to October 2017; the SpaceX Certification 
Review milestone date was changed from April 2017 to October 2017. The 
Commercial Crew Program is a large, complex development effort whereby 
the partners are expected to conform to a set of requirements in a 
fixed price contract.

    Mr. Bolden. I will tell you how it works. Frequently, we 
ask for the slip in the milestone because we do not have the 
money to pay it. That is why it is critically important. We now 
have two contracts, so we are contractually obligated to Boeing 
and SpaceX to pay them up to $6.8 billion. We have guaranteed 
them two missions each minimum, and up to six.
    Senator Shelby. You want to meet those obligations.
    Mr. Bolden. I want to meet those obligations, and the only 
way for me to meet them----
    Senator Shelby. Will they meet their obligations?
    Mr. Bolden. They will meet their obligations. Mr. Chairman, 
I do not have any doubt. I have the utmost confidence in both 
Boeing and SpaceX that they will meet their obligations if we 
meet ours to pay the bill.
    Our obligation is to provide oversight and insight, and 
make sure that we know what they have to do to provide us a 
safe vehicle. I have to have the money to pay them.
    Senator Shelby. Will you get this information for the 
subcommittee to evaluate?
    Mr. Bolden. I will.

                       RUSSIAN SEAT SOLICITATION

    Senator Shelby. My last question has to do with the Russian 
seat solicitation. The Commercial Crew Program is intending to 
replace our reliance on the Russians for transport to and from 
the space station as early as 2017.
    NASA has put a solicitation out, is my understanding, to 
purchase six more seats on Russian vehicles at a time when 
seats on the commercial crew vehicles should be available. I 
said ``should.''
    Mr. Bolden. Yes, sir.
    Senator Shelby. It appears NASA is already purchasing its 
own insurance policy in case the crew providers are not ready. 
I do not know that. The current cost of a seat from the 
Russians, I understand, is about $76 million, and it will 
likely be even more for those additional seats.
    The question I have for you, General, and for the record, 
too, what has NASA seen so far in the continued development of 
our own crewed vehicles to justify paying Russia hundreds of 
millions of dollars for seats that should already be covered by 
the U.S. providers if the U.S. companies meet their milestones?
    I do not know the situation. Could you explain?
    Mr. Bolden. Yes. The primary we have seen is the lack of 
commitment on the part of the Congress to fund the program at 
the amount requested by the President, and the President's 
request was to meet the contractual price that we negotiated 
with Boeing and SpaceX. That is not an estimate.
    Senator Shelby. The bottom line is you need more money; is 
that right?
    Mr. Bolden. We always need what we ask for in the budget. I 
would be more than happy to take more. We really need $1.2 
billion in 2016 because this is a critical time for us to make 
the 2017 launch date. We need $1.2 billion so they can complete 
the milestones that we have both agreed to.
    Senator Shelby. If they can complete them, we would not 
need to spend that money with Russia; right?
    Mr. Bolden. When we have an American capability, then we do 
not spend any more money with the Russians. We do not pay them 
for seats any more. We definitely will not pay them for seats 
any more once we have an American capability.

     COMMERCIAL CREW TRANSPORTATION CAPABILITY (CCTCAP) CONTRACTS

    Senator Shelby. Let me share this with you. It is my 
understanding that in the Commercial Crew Program, NASA 
initially decided to spread, General, the limited funding 
resources across five companies. It took NASA 5 years and $1.9 
billion to finally pick two companies.
    Mr. Bolden. Yes, sir.
    Senator Shelby. That will share $6.8 billion to develop a 
commercial crew capability. However, NASA continues to blame 
Congress for lack of resources, when it was NASA that chose to 
spend nearly $2 billion on a competition.
    While I agree as we all do that competition is important, 
prudent decisions in constrained fiscal environments such as 
this, are very important.
    My question here is this: in your view, has the decision to 
fund multiple companies during the initial competition delayed 
the delivery of a viable commercial crew capability? You spent 
a good deal of money doing that.
    Mr. Bolden. Senator, it is my belief that spending that 
money did not delay it at all. In fact, it gave us assurance 
that the two systems that we finally selected would in fact be 
the absolute best. We are still investing money in some of the 
companies that were in competition initially because they are 
still getting milestone payments under the original Space Act 
Agreements that we had, because they are bringing us benefits 
that we do not have to develop ourselves or the two contractors 
do not.
    If you look at Blue Origin, for example, as a result of the 
work that they have been doing with engines, we may have a new 
launch system by an American company with American engines. 
That remains to be seen.
    Some of the development that they did in the area of 
engines was as a result of collaborating with NASA, some of the 
test of components, as Senator Cochran mentioned, was done at 
Stennis. They do not test the full engine but they are where 
they are today, perhaps 2 years away from being able to develop 
a heavy lift engine of American origin, and that is because of 
the work that we supplemented.
    Senator Shelby. We appreciate that. We will continue to 
look at that. It is incumbent upon this subcommittee, as 
Senator Mikulski has said many times, that we are accountable 
to the American people and to our colleagues, and you are 
accountable to us. We are going to have to ask the right and 
tough questions.
    Mr. Bolden. Yes, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you very much, General. This will 
conclude our hearing. We may have some follow-up questions for 
the record.
    Mr. Bolden. Yes, sir. Mr. Chairman, I will get you the 
information.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted to Hon. Charles F. Bolden, Jr.

          Questions Submitted by Senator Christopher A. Coons

                         spaceport launch pad 0

    Question. What is the status of funding to complete repairs to 
launch Pad 0-A (Spaceport) in order to return to flight the Antares 
Rocket from the Wallops Flight Facility?
    Answer. NASA is strongly committed to maintaining a small/medium 
class launch vehicle capability at the NASA Wallops Flight Facility 
(WFF) in support of cargo resupply for the International Space Station 
(ISS), and is pleased at the progress of repair activities at pad 0A. 
NASA intends to ensure the needs of the ISS are met through the 
Commercial Resupply Services (CRS) contract between NASA and Orbital 
Sciences Corporation (now Orbital ATK). In fiscal year 2015, consistent 
with NASA's communications with the House and Senate Committees on 
Appropriations, NASA has provided a total of $5.0 million for 
commercial launch site services at WFF. Orbital ATK has made clear they 
intend to recover the capability to launch resupply missions again from 
Wallops, and has allocated funding in this regard. The Mid-Atlantic 
Regional Spaceport (MARS) has allocated funding from their annual 
maintenance budget for site cleanup and environmental remediation 
activities, site and engineering damage assessments, disassembly of 
damaged pad infrastructure, and repair of pad systems. NASA is 
continuing to work with all the parties--MARS, Orbital ATK, and the 
Commonwealth of Virginia--to ensure a small/medium class launch 
capability is restored to Wallops under the terms of the existing 
contracts and agreements. In sum, MARS continues to make good progress 
towards Pad 0A repair and return to service. All required demolition 
work has been completed, and all concrete structures have been repaired 
or replaced. In addition, all damaged fueling and pressure system 
piping have been identified, and fabrication and installation of new 
items is proceeding well. MARS, Orbital ATK, and NASA WFF are currently 
(end of July) in the replacement, cleaning and testing stage of the pad 
recovery. Environment monitoring is continuing to ensure there is no 
lasting impact to the launch pad area. Funding allocated to date 
supports the schedule for Pad 0A turnover to Orbital-ATK as planned.

                      national space access needs

    Question. What is NASA's plan to upgrade the range capabilities at 
Wallops Flight Facility, NASA's only launch range and one of the few 
active commercial spaceports to meet emerging national space access 
needs?
    Answer. NASA missions use a number of launch sites, including the 
Agency's facilities at Kennedy Space Center in Florida and Wallops 
Flight Facility in Virginia.
  --The Wallops Range Control Center expansion and upgrades are 
        continuing, and the remote range support systems in Bermuda are 
        being upgraded and hardened. Bermuda support is required for 
        Orbital-ATK Antares Commercial Resupply Services (CRS) 
        launches. The work being done in Bermuda includes:
    --Instrumentation formerly in mobile command and telemetry trailers 
            will be housed in a concrete building originally built by 
            NASA;
    --Radomes will be installed to protect sensitive antennas, 
            previously subject to extreme corrosion; and
    --Upgrades and hardening will significantly reduce annual funding 
            requirements for personnel and maintenance associated with 
            Bermuda activities.

                          SUBCOMMITTEE RECESS

    Senator Shelby. Thank you very much. The subcommittee is 
adjourned.
    [Whereupon, at 3:30 p.m., Thursday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
